<html>
<title> - REDUCING THE PAPERWORK BURDEN ON THE PUBLIC: ARE AGENCIES DOING ALL THEY CAN?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





  REDUCING THE PAPERWORK BURDEN ON THE PUBLIC: ARE AGENCIES DOING ALL 
                               THEY CAN?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON REGULATORY AFFAIRS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2005

                               __________

                           Serial No. 109-42

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-572                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                   Subcommittee on Regulatory Affairs

                 CANDICE S. MILLER, Michigan, Chairman
GINNY BROWN-WAITE, Florida           STEPHEN F. LYNCH, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
LYNN A. WESTMORELAND, Georgia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Ed Schrock, Staff Director
                Erik Glavich, Professional Staff Member
                           Alex Cooper, Clerk
                     Krista Boyd, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 14, 2005....................................     1
Statement of:
    Koontz, Linda D., Director, Information Management Issues, 
      U.S. Government Accountability Office; Kimberly T. Nelson, 
      Assistant Administrator and Chief Information Officer, U.S. 
      Environmental Protection Agency; Patrick Pizzella, 
      Assistant Secretary for Administration and Management, U.S. 
      Department of Labor; Daniel P. Matthews, Chief Information 
      Officer, U.S. Department of Transportation; Kevin Barrett, 
      certified industrial hygienist [CIH] and certified safety 
      professional [CSP], Barrett Operational Safety and Health 
      Management Services; and Sean Moulton, senior information 
      policy analyst, OMB Watch..................................     8
        Barrett, Kevin...........................................    87
        Koontz, Linda D..........................................     8
        Matthews, Daniel P.......................................    49
        Moulton, Sean............................................   102
        Nelson, Kimberly T.......................................    34
        Pizzella, Patrick........................................    70
Letters, statements, etc., submitted for the record by:
    Barrett, Kevin, certified industrial hygienist [CIH] and 
      certified safety professional [CSP], Barrett Operational 
      Safety and Health Management Services, prepared statement 
      of.........................................................    89
    Koontz, Linda D., Director, Information Management Issues, 
      U.S. Government Accountability Office, prepared statement 
      of.........................................................    10
    Matthews, Daniel P., Chief Information Officer, U.S. 
      Department of Transportation, prepared statement of........    51
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan, prepared statement of...............     4
    Moulton, Sean, senior information policy analyst, OMB Watch, 
      prepared statement of......................................   105
    Nelson, Kimberly T., Assistant Administrator and Chief 
      Information Officer, U.S. Environmental Protection Agency, 
      prepared statement of......................................    37
    Pizzella, Patrick, Assistant Secretary for Administration and 
      Management, U.S. Department of Labor, prepared statement of    72

 
  REDUCING THE PAPERWORK BURDEN ON THE PUBLIC: ARE AGENCIES DOING ALL 
                               THEY CAN?

                              ----------                              


                         TUESDAY, JUNE 14, 2005

                  House of Representatives,
                Subcommittee on Regulatory Affairs,
                             Committee on Government Reform
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2247, Rayburn House Office Building, Hon. Candice S. 
Miller (chairwoman of the subcommittee) presiding.
    Present: Representatives Miller, Brown-Waite, and Lynch.
    Staff present: Rosario Palmieri, deputy staff director; 
Erik Glavich, professional staff member; Joe Santiago, GAO 
detailee; Alex Cooper, clerk; Krista Boyd, minority counsel; 
and Cecelia Morton, minority office manager.
    Mrs. Miller. Good afternoon, I am going to start the 
hearing. I think our ranking member Mr. Lynch will be here in 
any moment.
    So we will call the Subcommittee of Regulatory Affairs to 
order. I would certainly like to welcome you all to today's 
hearing. Of course we are going to be talking about the efforts 
of Federal agencies to reduce the paperwork burden imposed on 
the public.
    Today's hearing is the second, actually, by this 
subcommittee regarding this subject. On May 25th we examined 
efforts with the Internal Revenue Service to reduce the burden 
on taxpayers, which was a very interesting hearing, I think. 
The IRS actually accounts, they say, for roughly 80 percent of 
the paperwork burden, but there are certainly many more 
agencies that have to force individuals and businesses to take 
considerable amounts of time filling out forms and complying 
with governmental regulations.
    Excluding the Department of Treasury, the Federal 
Government imposes nearly 1.6 billion hours of burden on the 
public, with five agencies imposing more than 100 million hours 
of burden.
    Much of the information collected by Federal agencies is 
unnecessary, some might say extremely burdensome. And agencies 
and the Federal Government--we all need to work together to do 
a better job to ensure that unnecessary functions are not 
unnecessarily burdensome. In response to increases in 
government-imposed burden, Congress passed the Paperwork 
Reduction Act [PRA] in 1980. However, the burden imposed on the 
public has continued to increase throughout the years.
    Congress amended the PRA in 1995, and they established 
burden reduction goals of 5 to 10 percent for the first 5 years 
of its enactment. Furthermore, the 1995 PRA set annual 
paperwork reduction goals that reduced burden thereafter to 
the, ``maximum practicable opportunity.''
    Despite the intent of Congress, the burden has not 
decreased, unfortunately. The non-Treasury paperwork burden now 
exceeds 1996 levels. It is projected to increase even further. 
Of course, Congress has not been without blame. We all have to 
take a good look in the mirror sometimes, obviously, because 
according to the OMB the non-Treasury burden has increased by 
nearly 85 million hours over just the past 3 years because of 
required program changes.
    In a post-September 11th world, many new regulations of 
course are necessary to ensure the safety of the Nation. 
Congress has passed several laws that have obviously increased 
the burden. However, Federal agencies as a whole have not done, 
I think, as good a job as they possibly could in reducing 
burden in areas that are under their discretion. In fact, there 
are a lot of discretionary agency actions and not statutes 
passed by Congress that have increased the non-Treasury 
paperwork burden imposed by the public, some estimate by as 
much as 51 million hours, as well over the past 3 years.
    So we are very pleased today to have the Chief Information 
Officers of the EPA, of Department of Labor, of the Department 
of Transportation here with us here.
    Together these three agencies alone account for over 557 
million hours of burden. We tried to put that into terms of 
what does it even mean. Difficult to get your mind around those 
numbers. To put it into perspective, that would mean 279,000 
employees would have to spend 40 hours per week for 50 weeks 
per year just filling out paperwork for these three agencies 
alone. Obviously this is a task of reducing the burden, a very 
difficult task. And our witnesses, I am sure, will attest to 
that.
    But we also need to always think of the term ``customer 
service.'' Customer service cannot be a novel concept for any 
level of government, Federal, State, local, what have you. We 
need to think in terms of our customer and who we are servicing 
and do the very best that we can for them.
    The intent of Congress was very clear when it passed in 
1995 the PRA. And since burden is imposed by an agency, it is 
also the agency's responsibilities to work with us to minimize 
that burden. We will be looking at that today.
    We are also pleased to have with us today Linda Koontz of 
the GAO. Her testimony will provide the subcommittee with 
insights, very vital insights, I am sure, into efforts by 
Federal agencies to reduce burden through compliance with the 
PRA and beyond, in fact, what is actually required by law.
    In preparation for this hearing, both Chairman Tom Davis of 
the Government Reform Committee and I requested the GAO to 
assess agency compliance with the PRA.
    [Note.--The GAO report entitled, ``Paperwork Reduction Act, 
New Approach May Be Needed to Reduce Government Burder on 
Public,'' may be found in subcommittee files.]
    Mrs. Miller. The GAO has concluded that the governmentwide 
industry CIOs generally have reviewed information collections 
and certified that they have met the standards outlined in the 
PRA.
    However, its analysis also showed that CIOs certified 
collections even though support for those standards was often 
missing or partial. This is somewhat troubling, because without 
support from agencies showing the standards are met, or the 
attempts are being made to meet them, Congress and the public 
has a hard time being completely confident that the highest 
degree of attention was focused on minimizing the burden.
    So I certainly want to thank each of our witnesses today. 
We are looking forward to your input.
    Obviously, every hour spent by an individual or a business 
completing paperwork for the Federal Government is an hour that 
could be spent doing something else, perhaps more productive, 
and excessive and unnecessary burden imposed on individuals and 
businesses hurts job creation. It certainly hinders our ability 
to be competitive in a global marketplace as well.
    I think America's businesses should have the absolute 
confidence that their government is doing all it can to provide 
economic expansion. And oftentimes, unfortunately, that old 
saying I am from the government, I am here to help you is a 
choking grain of truth, I think.
    So at this time I would like to recognize the distinguished 
ranking member of the subcommittee, Congressman Stephen Lynch, 
for his opening remarks.
    [The prepared statement of Hon. Candice S. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T2572.001
    
    [GRAPHIC] [TIFF OMITTED] T2572.002
    
    Mr. Lynch. Well, thank you, Madam Chairwoman.
    First of all, I would like to thank you, Madam Chairwoman, 
for convening this hearing to examine what agencies are doing 
to decrease the amount of paperwork that Americans are forced 
to do in compliance with various laws administered by these 
agencies.
    Information collection, I think, if done efficiently, can 
be one of the most important and most powerful and necessary 
tools of the Federal Government. Information gathering enables 
our government to collect taxes, administer programs and 
enforce the law. Some collections are also used to provide 
important information to the public.
    For example, under the EPA's Toxic Release Inventory 
businesses are required to report information about the toxic 
chemicals they release into our air and water. EPA then makes 
that information publicly available, and this holds polluters 
accountable and it enables members of the public to find out 
about the toxic chemicals being released into their 
neighborhoods and their towns.
    It also has been an effective tool to discourage companies 
from polluting and to tighten their operating procedures. They 
do that voluntarily under the threat of disclosure. Without the 
government mandate to publish that information, and without 
accurate information, there would be a built-in inefficiency 
that future companies and successor companies are forced to pay 
the cost of the damage done by their predecessors.
    While it is critical for agencies to collect certain 
information in order to do their jobs, it is also very, very 
important that the process be as easy as possible without 
losing necessary information.
    When an agency requests information from the public, 
individuals and businesses have to spend time and effort 
gathering that requested information and then filling out the 
required forms. Everyone can agree that information requests 
should be clear and simple and should be available 
electronically.
    Today we will have the benefit of hearing from the Chief 
Information Officers from EPA, the Department of Labor and the 
Department of Transportation. I am looking forward to hearing 
from each of you what your agencies are doing to improve how 
information is collected.
    I have also had a chance to look at the GAO report that 
Madam Chairwoman referred to earlier, and I am concerned as 
well about the compliance factor in terms of meeting the 10 
standards, which are, I believe, fair and reasonable in 
reducing paperwork to all respondents, both businesses and 
individuals.
    In the report being released today on agency compliance 
with Paperwork Reduction Act, GAO highlighted the efforts that 
have been made by the IRS and EPA. According to GAO, these 
agencies have devoted significant resources to reducing the 
burden on individuals in businesses and have proactively 
involved stakeholders in the review of certain information 
collections.
    GAO also reports that the EPA has made burden reduction a 
priority because of the high visibility of the agency's 
information collection and because, among other reasons, the 
success of the EPA's enforcement mission depends on information 
collections being properly justified and approved. GAO quotes 
an EPA official saying that information collections are the 
lifeblood of the agency and its work.
    Because regulatory agencies such as the EPA and the DOL and 
the Department of Transportation cannot function without 
information, it's important to reduce that paperwork, not cut 
to the bone, and focus instead on making information 
collections more efficient while maintaining the agency's 
ability to collect the information they need to do their job 
and that allow the agencies the freedom to do just that.
    I want to thank Madam Chairwoman again for her help and her 
leadership on this issue and convening this hearing. I also 
want to thank the witnesses for being here today, and I look 
forward to your testimony.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank you.
    It's the practice of the Government Reform Committee to 
swear in all of our witnesses, so if you could all stand please 
and raise your right hands.
    [Witnesses sworn].
    Mrs. Miller. As we begin with the witnesses today, we ask 
you to try to keep your oral testimony to 5 minutes. I won't be 
right on the money with that. But in the interest of time, if 
you could watch the little boxes in front of you. When the 
yellow light comes on that means you have 1 minute remaining, 
and of course the red light means 5 minutes are up. If you have 
not concluded by then I would ask you to try to sort of wrap it 
up by that time.
    Our first witness, Linda Koontz, is the Director of 
Information Management Issues at the U.S. Government 
Accountability Office. Mrs. Koontz is responsible for issues 
concerning the collection user and dissemination of government 
information in an era of rapidly changing technology. Among 
many of her official duties Mrs. Koontz has lead responsibility 
for information technology management issues at various 
agencies, including the Department of Veterans Affairs and 
Housing and Urban Development and the Social Security 
Administration. Ms. Koontz has a BA Degree, Bachelor's from 
Michigan University, ``Go Green,'' and is a Certified 
Government Financial Manager and a member of the Association 
for Information and Image Management Standards Board.
    We certainly look forward to your testimony, Ms. Koontz.

STATEMENTS OF LINDA D. KOONTZ, DIRECTOR, INFORMATION MANAGEMENT 
  ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; KIMBERLY T. 
NELSON, ASSISTANT ADMINISTRATOR AND CHIEF INFORMATION OFFICER, 
    U.S. ENVIRONMENTAL PROTECTION AGENCY; PATRICK PIZZELLA, 
  ASSISTANT SECRETARY FOR ADMINISTRATION AND MANAGEMENT, U.S. 
  DEPARTMENT OF LABOR; DANIEL P. MATTHEWS, CHIEF INFORMATION 
  OFFICER, U.S. DEPARTMENT OF TRANSPORTATION; KEVIN BARRETT, 
   CERTIFIED INDUSTRIAL HYGIENIST [CIH] AND CERTIFIED SAFETY 
   PROFESSIONAL [CSP], BARRETT OPERATIONAL SAFETY AND HEALTH 
   MANAGEMENT SERVICES; AND SEAN MOULTON, SENIOR INFORMATION 
                   POLICY ANALYST, OMB WATCH

                  STATEMENT OF LINDA D. KOONTZ

    Ms. Koontz. I thank you, Chairwoman Miller and members of 
the subcommittee. I am pleased to be here today to discuss the 
implementation of the Paperwork Reduction Act. As you know, the 
primary goals of the act are to minimize the government 
paperwork burden on the public while maximizing the public 
benefit and utility of the information collections that the 
government undertakes.
    In May 2005, OMB provided its annual PRA report to the 
Congress. According to this report, the paperwork burden 
imposed by all Federal information collections shrank slightly 
in fiscal year 2004. The total burden was estimated at 7.971 
billion hours, which is a decrease of about 1.6 percent from 
the previous year's estimate of about 8.099 billion hours.
    Different types of changes contributed to the overall 
change in the total burden estimates, according to OMB. For 
example, some of the decrease, about 156 million hours, arose 
from adjustments to the estimates, including changes in 
estimation methods and in the population of respondents. In 
addition, agency burden reduction efforts led to a decrease of 
about 97 million hours. These decreases were partially offset 
by increases in other categories, primarily an increase of 199 
million hours arising from new statutes.
    However, there are limitations in the government's ability 
to develop accurate burden estimates, which means that the 
degree to which agency burden hour estimates reflect real 
burden is unclear, and so the significance of small changes in 
these estimates is also uncertain. Nonetheless, these estimates 
are the best indicators of Federal paperwork burden that we 
have, and they can be useful as long as we keep the limitations 
in mind.
    To help achieve the goals of minimizing burden while 
maximizing utility, the PRA includes a range of provisions, 
including a requirement for Chief Information Officers to 
review and certify that information collections meet certain 
standards. Government-wide, we found that agency CIOs generally 
reviewed information collections before they were submitted to 
OMB and certified that the required standards in the act were 
met.
    However, in reviewing 12 case studies we found that CIOs 
provided these certifications despite often missing or 
inadequate support from the program offices supporting the 
collections. Further, although the law requires CIOs to provide 
support for certifications, agency files contained little 
evidence that CIO reviewers had made efforts to improve the 
support by program offices. Numerous factors have contributed 
to these problems, including a lack of management support and 
weaknesses in OMB guidance.
    As a result the CIO reviews appear to be lacking in the 
rigor that Congress envisioned and have not been shown to 
reduce burden. On the other hand, alternative approaches to 
burden reduction suggest promising alternatives to the current 
review process outlined in the PRA.
    Specifically, IRS and EPA have used additional evaluative 
processes that focused specifically on reducing burden. These 
processes are targeted resource intensive efforts that outreach 
to stakeholders. According to these agencies, their procedures 
led to significant reduction in burden to the public while 
maximizing the utility of the information collections.
    In summary, government agencies often need to collect 
information to perform their missions. The PRA puts in place 
mechanisms to focus agency attention on the need to minimize 
the burdens that these collections impose while maximizing the 
public benefit and utility of government information 
collections. But these mechanisms have not succeeded in 
achieving the ambitious reduction of goals set forth in the 
1995 amendments. Achieving real reductions in the paperwork 
burden is an elusive goal, as years of PRA reports attest.
    Although the CIO reviews required by the act as currently 
implemented seems to have little effect, targeted approaches to 
burden reduction such as those used by the IRS and EPA could be 
effective. These agencies' experience also suggest that to make 
such approaches successful requires top level executive 
commitment, extensive involvement of program office staff with 
appropriate expertise and aggressive outreach to stakeholders.
    Indications are that this would be more resource intensive 
than the current process and in fact such an approach may not 
be warranted at agencies that do not have the level of 
paperwork issues that face IRS and similar agencies.
    Consequently, it is critical that any efforts to expand the 
use of the IRS and EPA models consider these factors. In a 
report that is being released today we recommend that the OMB 
and agencies take steps to improve reviewing processes in 
compliance with the act. We also suggested that the Congress 
may wish to consider mandating pilot projects to target some 
collections for rigorous analysis along the lines of the IRS 
and EPA approaches. By taking these steps, we believe that 
government can make further progress in realizing the vision 
reflected in the PRA.
    Chairwoman Miller, this completes my statement. I would be 
pleased to answer questions at the appropriate time.
    [The prepared statement of Ms. Koontz follows:]

    [GRAPHIC] [TIFF OMITTED] T2572.003
    
    [GRAPHIC] [TIFF OMITTED] T2572.004
    
    [GRAPHIC] [TIFF OMITTED] T2572.005
    
    [GRAPHIC] [TIFF OMITTED] T2572.006
    
    [GRAPHIC] [TIFF OMITTED] T2572.007
    
    [GRAPHIC] [TIFF OMITTED] T2572.008
    
    [GRAPHIC] [TIFF OMITTED] T2572.009
    
    [GRAPHIC] [TIFF OMITTED] T2572.010
    
    [GRAPHIC] [TIFF OMITTED] T2572.011
    
    [GRAPHIC] [TIFF OMITTED] T2572.012
    
    [GRAPHIC] [TIFF OMITTED] T2572.013
    
    [GRAPHIC] [TIFF OMITTED] T2572.014
    
    [GRAPHIC] [TIFF OMITTED] T2572.015
    
    [GRAPHIC] [TIFF OMITTED] T2572.016
    
    [GRAPHIC] [TIFF OMITTED] T2572.017
    
    [GRAPHIC] [TIFF OMITTED] T2572.018
    
    [GRAPHIC] [TIFF OMITTED] T2572.019
    
    [GRAPHIC] [TIFF OMITTED] T2572.020
    
    [GRAPHIC] [TIFF OMITTED] T2572.021
    
    [GRAPHIC] [TIFF OMITTED] T2572.022
    
    [GRAPHIC] [TIFF OMITTED] T2572.023
    
    [GRAPHIC] [TIFF OMITTED] T2572.024
    
    [GRAPHIC] [TIFF OMITTED] T2572.025
    
    [GRAPHIC] [TIFF OMITTED] T2572.026
    
    Mrs. Miller. Thank you.
    At this time I would like to recognize another member of 
our committee, Ginny Brown-Waite from Florida, for an opening 
statement.
    Ms. Brown-Waite. Thank you very much, Madam Chairwoman. I 
appreciate your holding this hearing today to assess the 
paperwork burden imposed on the American public by regulatory 
agencies. I just came from lunch with a road builder who does a 
lot of Federal work and with somebody involved in the 
construction industry, you know, they certainly bent my ear 
about the paperwork both at the State and at the Federal level, 
which often seems to be duplicative.
    The Paperwork Reduction Act was an important piece of 
legislation that stated Congress', unfortunately, unambiguous 
objective to reduce the paperwork burden on the public. 
However, since passage of this legislation the paperwork burden 
imposed by agencies has increased rather than decreased.
    The three agencies represented at today's hearing single-
handedly account for 557.4 million hours of the total burden 
imposed on the public by the Federal Government in 2004. To put 
this figure into perspective, 279,000 employees would have to 
spend 40 hours a week, 50 weeks a year filling out paperwork 
just for these three agencies. Many believe that this time 
could be better spent.
    The reason for the steady rise in the paperwork are 
manifold, and part of the blame can be placed squarely on 
Congress for passing legislation that causes agencies to 
administer more paperwork.
    I am here today to learn more about how agencies determine 
what paperwork is essential to the performance of their duties 
and how Congress can help agencies to reduce their paperwork 
burden. I look forward to hearing the remainder of the speakers 
and appreciate you all being here and certainly appreciate you, 
Madam Chairwoman, for holding this hearing.
    Mrs. Miller. All right. Our next witness is Kimberly T. 
Nelson. November 30, 2001, Ms. Nelson was sworn in as Assistant 
Administrator for Environmental Information and Chief 
Information Officer at the EPA.
    Since assuming her current role at the EPA Ms. Nelson has 
been instrumental in expanding the CIO's role with the agency 
and has overseen the creation and implementation of several 
major initiatives, including the Central Data Exchange, the 
release in 2003 of the first ever draft report on the 
environment, and has been leading the implementation of the 
agency's enterprise architecture.
    She also serves on the Executive Council of the Federal CIO 
Board and acts as both the co-chair of both the CIOs Council 
Architecture and Infrastructure Committee and the Federal 
Government-wide e-Rulemaking Committee as well.
    Thank you for your attendance today, and we look forward to 
your testimony, ma'am.

                STATEMENT OF KIMBERLY T. NELSON

    Ms. Nelson. Thank you, Madam Chairwoman, and to your 
colleagues for the opportunity to be here today. As you are 
probably aware, EPA is responsible for implementing and 
enforcing eight major environmental statutes that protect our 
land, air and water as well as the Superfund law, which 
includes the Emergency Planning and Community Right-to-Know 
Act.
    Over the last three decades our laws have dramatically 
improved human health and the environment. Citizens are better 
able to boat, swim and fish in thousands of miles of formerly 
contaminated rivers and streams. Industrial waste areas have 
been cleaned up and returned to productive use, and our air is 
the cleanest it has been since the establishment of EPA. Total 
emissions of six principal air pollutants have been reduced by 
54 percent from 1970 to last year. Enforcement of the 
environmental laws by both the Federal Government and our 
States has been critical to these achievements.
    Assuring compliance with these statutes requires EPA to 
collect information from the public. As new regulations 
develop, so does the need for collecting information associated 
with implementing the regulations, which usually translates 
into an increase in burden.
    Over the past 4 years, though, EPA's burden on the public 
has leveled a bit with the total burden of hours imposed by the 
EPA on the public between 140 and 146 million hours.
    To put these numbers in perspective, which you have done 
when you opened up the meeting today, EPA's burden on the 
public is less than 2 percent of the total Federal Government 
burden, and we now rank sixth in terms of the Federal 
Government.
    EPA is very proud of the culture that we have that's 
developed over the years in terms of reducing burden. From the 
outset, our programs develop regulations and information 
collections, seeking the least burdensome approach to 
collecting the information while retaining the integrity of our 
environmental mission.
    EPA complies with the Paperwork Reduction Act by first 
ensuring through an independent review that the 10 standards 
you mentioned specified in the act are met and that the 
analytical processes to derive those burden estimates are 
sound. We ensure that the requirements for burden reduction are 
understood by our program offices through guidance measures and 
consultation, and we track all the information collection 
requests, and we notify the program offices of their impending 
need to respond in a timely manner.
    The fact that we have had only two violations in the past 
4\1/2\ years speaks to the success of the program that we have 
in place today. We ensure the practical utility of the 
information we collect by considering statutory requirements, 
industry practice, past regulatory requirements and 
opportunities for further reduction and reporting burden. We 
believe that we have taken steps to reduce the burden above and 
beyond what is required, including taking advantage of 
information technology to do so.
    One of the things I am most proud of is some of the work 
that we are doing with our State partners, which has released 
the Toxic Inventory State Exchange Pilot. This pilot reduces 
the times and the resources expended by regulated facilities to 
submit annual reports to the EPA and to the United States. 
Beginning this year facilities in Michigan, South Carolina and 
in Virginia are able to use the TRI-ME software to report 
simultaneously to the EPA and the States via the Internet using 
our Central Data Exchange.
    This is an important notion, because Representative, you 
mentioned that often there's duplication between the Federal 
Government and States. This is a law that requires a facility 
to submit two reports at the exact same time. What we are doing 
is putting into place that they only have to submit one. The 
CDX will then electronically forward the information on to the 
States, which enables the facilities to submit the reports only 
one time.
    It streamlines the submittal process for the facilities and 
the data acceptance and processing for both the EPA and the 
States. The simultaneous reporting also will greatly enhance 
our data quality and allow the EPA and the United States to 
share information much earlier in a release cycle. Very soon, 
we are going to be pleased to have Indiana join that list of 
States, and we expect next year another 10 to 20 additional 
States.
    Some of the other things we are doing that might be of 
interest, we have in the Toxic Release Inventory Program a 
modernization effort that will help increase the amount of 
electronic reporting and a major regulatory burden reduction 
effort that consists of two proposed rules that will come out 
this year. Those rules will eliminate duplication and possibly 
allow a no-significant change option, which means that a 
facility will be able to submit a very simplified streamlined 
report if they haven't had significant changes in their 
releases.
    In our Research Conservation Recovery Act program we also 
have a burden of reduction effort that will include 150 
regulatory reporting changes that we expect to be promulgated 
later this year. We expect that to significantly reduce or 
eliminate a lot of the recordkeeping and burden associated with 
the hazardous waste program. By only asking for the most 
critical information needed to run that hazardous waste 
program, we believe that we can ensure that environmental 
expenditures are devoted to environmental protection rather 
than generating unnecessary paper.
    You have already mentioned our Central Data Exchange. We 
believe that provides that single portal through which all 
States, regulated facilities, tribes and others can provide 
data to EPA simplifying that process. Right now we have 19 
different kinds of collections coming into one single portal 
both by States and industry using a fully electronic approach.
    One of those examples that we put in place last year was 
our stormwater form, which reduces the burden by nearly one-
third while reducing the processing time by an average of 33 
days, a very significant savings by taxpayers. EPA's Small 
Business Division has convened an agencywide work group to 
identify and develop the best approaches across the agency to 
reduce further paperwork burden on our small businesses, and we 
are very much looking forward to the progress of that group as 
the year rolls out.
    You have my testimony. I have submitted more complete 
information there that describes some of our compliance 
activity, and I look forward to answering any questions you 
might have.
    Thank you again.
    [The prepared statement of Ms. Nelson follows:]

    [GRAPHIC] [TIFF OMITTED] T2572.027
    
    [GRAPHIC] [TIFF OMITTED] T2572.028
    
    [GRAPHIC] [TIFF OMITTED] T2572.029
    
    [GRAPHIC] [TIFF OMITTED] T2572.030
    
    [GRAPHIC] [TIFF OMITTED] T2572.031
    
    [GRAPHIC] [TIFF OMITTED] T2572.032
    
    [GRAPHIC] [TIFF OMITTED] T2572.033
    
    [GRAPHIC] [TIFF OMITTED] T2572.034
    
    [GRAPHIC] [TIFF OMITTED] T2572.035
    
    [GRAPHIC] [TIFF OMITTED] T2572.036
    
    [GRAPHIC] [TIFF OMITTED] T2572.037
    
    [GRAPHIC] [TIFF OMITTED] T2572.038
    
    Mrs. Miller. Thank you so much. Our next witness is Daniel 
Matthews. He is the Chief Information Officer of the Department 
of Transportation, was appointed to his position in March 2003. 
As CIO, Mr. Matthews is responsible for providing advice and 
guidance on how to best use information technology resources 
and ensuring that the Department of Transportation investments 
in technology are sound ones.
    CIO Matthews is a veteran of the U.S. Air Force, having 
served from 1971 to 1975, and worked in logistics and computers 
there. We certainly look forward to your testimony.
    You have the floor, sir.

                STATEMENT OF DANIEL P. MATTHEWS

    Mr. Matthews. Thank you, Madam Chairwoman. Madam Chairwoman 
and members of the subcommittee, thank you for the opportunity 
to appear today to discuss the Department of Transportation's 
compliance with the Paperwork Reduction Act [PRA].
    DOT is improving the information collection and management 
processes, but we also face some challenges. To put things in 
context, as of May 31, 2005, the Department of Transportation 
had 376 approved active information collections which totaled 
over 253 million burden hours.
    Of the DOT's information collections, one, truck driver's 
hours of service account for 65 percent, 160 million hours, of 
DOT's public burden hours. The remaining 366 information 
collections account for 35 percent.
    DOT's process requires the program officials with the 
Operating Administrations first validate the need for an 
information collection in response to a new requirement, a 
public law or a new rule. If the Operating Administration or 
the DOT/PRA compliance officer determines that the collection 
is overly burdensome on the public or does not comply with any 
of the 10 PRA standards, the information collection request 
package is returned to the originator with suggestions for more 
complete compliance with the PRA. What is important about the 
process is that it allows DOT at various checkpoints to 
determine the need for and the practical utility of the 
information it proposes to collect.
    It is in everyone's interest that DOT ensure that all of 
our information collection activities impose the minimum 
possible burden on the public and that the information gathered 
is of the utmost utility. It is in the best interest of the 
Operating Administrations to keep their information-gathering 
burdens to a minimum by ensuring that the program office is 
collecting only the information necessary for the proper 
performance of the program function and then only to the 
frequency that is needed.
    Also, the Department works with the Operating 
Administrations to ensure that the information gathered 
satisfies the program's needs and the collection methods used 
are sound and appropriate.
    As to what steps DOT is taking to reduce the reporting 
burden, I first note that the majority of the Department's 
information collections are in response to enacted laws that 
are intended to ensure the safety of the traveling public. As a 
result, the reality of making annual percentage decreases and 
collection burden hours is a challenging task.
    For example, as I noted earlier, one collection alone 
imposes 160 million hours, 65 percent of DOT's total public 
burden hours. This collection is the Federal Motor Carrier 
Safety Administration Hours of Service Rule, a rule which has 
been in effect since the late 1930's and has been revised and 
issued in final form several times. The Hours of Service 
regulations require certain commercial motor vehicle drivers to 
prepare and maintain a record of duty status. DOT expects to 
publish a newly revised final rule no later than September 30, 
2005.
    But beyond the Hours of Service collection, and considering 
the other 93 million burden hours, DOT is taking steps to 
reduce that burden above and beyond what is required by the 
law.
    Agencies such as the Federal Railroad Administration are 
demonstrating that information technology can and does reduce 
burden. For instance, FRA grants waivers to railroads to 
capture and retain hours of duty data in an electronic form. 
Converting paper to electronic records has been a longstanding 
and important initiative to improve the performance of this 
vital safety program while reducing the burden on affected 
railroads. This not only saves the railroads paper and storage 
costs, but it also serves to reduce the paperwork burden which 
to date has saved over 772,000 hours.
    Finally, DOT has initiated a cross-agency approach to 
institutionalize substantive burden reductions. DOT is focusing 
on several critical strategies to achieve reductions. Improving 
the efficiency of information collections, reducing the burden 
per response, promoting where feasible the use of electronic 
reporting, making adjustments where possible to the frequency 
of the collection and creating partnerships internal to DOT and 
with other Federal agencies to ensure there is no duplicative 
reporting and to maximize data sharing.
    Again, I thank you for the opportunity to comment on this 
important topic, and I look forward to answering any questions 
that you may have.
    Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Matthews follows:]

    [GRAPHIC] [TIFF OMITTED] T2572.039
    
    [GRAPHIC] [TIFF OMITTED] T2572.040
    
    [GRAPHIC] [TIFF OMITTED] T2572.041
    
    [GRAPHIC] [TIFF OMITTED] T2572.042
    
    [GRAPHIC] [TIFF OMITTED] T2572.043
    
    [GRAPHIC] [TIFF OMITTED] T2572.044
    
    [GRAPHIC] [TIFF OMITTED] T2572.045
    
    [GRAPHIC] [TIFF OMITTED] T2572.046
    
    [GRAPHIC] [TIFF OMITTED] T2572.047
    
    [GRAPHIC] [TIFF OMITTED] T2572.048
    
    [GRAPHIC] [TIFF OMITTED] T2572.049
    
    [GRAPHIC] [TIFF OMITTED] T2572.050
    
    [GRAPHIC] [TIFF OMITTED] T2572.051
    
    [GRAPHIC] [TIFF OMITTED] T2572.052
    
    [GRAPHIC] [TIFF OMITTED] T2572.053
    
    [GRAPHIC] [TIFF OMITTED] T2572.054
    
    [GRAPHIC] [TIFF OMITTED] T2572.055
    
    [GRAPHIC] [TIFF OMITTED] T2572.056
    
    [GRAPHIC] [TIFF OMITTED] T2572.057
    
    Mrs. Miller. Thank you, Mr. Matthews.
    Our next witness is Mr. Pizzella. Am I pronouncing it 
correctly?
    Mr. Pizzella. Pizzella.
    Mrs. Miller. Pizzella. He was confirmed as Assistant 
Secretary for Administration and Management by the U.S. 
Department of Labor on May 9, 2001. As Assistant Secretary of 
Labor, Mr. Pizzella serves as the principal adviser to the 
Secretary of Labor in the Administration and Management 
Programs of the Department and as the Department's Chief 
Information Officer and Chief Human Capital Officer. He is a 
native of New Rochelle, NY.
    Mr. Pizzella has served in both the private and the public 
sectors. He is the former Policy Coordinator for the General 
Services Administration, and he was also selected in 2004 as 1 
of the 25 top doers, dreamers and drivers by Government 
Technology Magazine.
    We did a little research on you. We thank you for your 
presence here today and look forward to your testimony.

                 STATEMENT OF PATRICK PIZZELLA

    Mr. Pizzella. Thank you. Good afternoon, Chairwoman Miller, 
Ranking Member Lynch and Congresswoman Brown-Waite. Thank you 
for inviting me here to discuss the Department's efforts to 
reduce paperwork burdens through compliance with the Paperwork 
Reduction Act and through burden reduction initiatives beyond 
what is statutorily required of the Department. I appreciate 
this opportunity to discuss the Department's responsibilities 
under PRA and our efforts to provide relief and fair treatment 
to all business owners and individuals.
    The Department is committed to reducing the burden that 
America's businesses and individuals deal with every day as a 
result of Federal regulations and paperwork. The PRA is an 
important tool for the Department in all Federal agencies to 
use in reducing unnecessary burdens on the American public.
    In carrying out the Department's broad and varied mission, 
the Department of Labor enforces more than 180 Federal laws. In 
administering these laws and related programs, the Department 
actively seeks to minimize the paperwork burden it imposes on 
the American public while maintaining its mission and 
fulfilling its statutory and programmatic responsibility.
    The Department has also successfully adopted the Office of 
Management and Budget's zero tolerance policy for PRA 
violations, and this is something we are very proud of because 
this is an indication of the responsible and fair 
administration of the PRA and because it's also just good 
customer service.
    Following the PRA requirements for review and approval 
provides a regular fresh look at our information collection 
practices, helping us keep them up to date and relevant. The 
Department remains committed to the goals of the PRA and 
continues to explore and implement new ways to reduce burden 
hours imposed on the public.
    To this end, since fiscal year 2002 the Department has 
submitted 12 burden reduction initiatives to OMB, several of 
which have already resulted in a reduction of approximately 
221,000 burden hours. These initiatives involve three main 
burden reduction strategies: One, a comprehensive evaluation 
and updating of regulation; two, streamlined information 
collections and, third, a deployment of automated collection 
techniques.
    The Department takes the PRA very seriously. The PRA 
requires each agency head to designate a senior official to 
carry out the responsibilities of the agency under the PRA. At 
the Department, as the Chief Information Officer, I report 
directly to the Secretary and am responsible for ensuring 
agency compliance with the PRA.
    Accordingly, as CIO, I established an independent process 
to evaluate proposed information collections and issued 
internal policy for implementing the Department's information 
collection management program. Through its vigorous internal 
review process, the Department aggressively controls the amount 
of burden it imposes on the American public and ensures 
practical utility of its information collections with five main 
strategies in mind: The review of rulemaking actions; assessing 
the use of technology; routine review of information collection 
activities; burden reduction initiatives; and, finally, 
business public consultation.
    Through a rigorous internal review process and aggressive 
burden reduction strategies, the Department of Labor is 
committed to reducing the paperwork burden on the American 
public. In addition, the Department has a very strong program 
of compliance assistance to help all businesses comply with 
those requirements we place on them.
    That concludes my prepared testimony. I look forward to 
answering your questions.
    [The prepared statement of Mr. Pizzella follows:]

    [GRAPHIC] [TIFF OMITTED] T2572.058
    
    [GRAPHIC] [TIFF OMITTED] T2572.059
    
    [GRAPHIC] [TIFF OMITTED] T2572.060
    
    [GRAPHIC] [TIFF OMITTED] T2572.061
    
    [GRAPHIC] [TIFF OMITTED] T2572.062
    
    [GRAPHIC] [TIFF OMITTED] T2572.063
    
    [GRAPHIC] [TIFF OMITTED] T2572.064
    
    [GRAPHIC] [TIFF OMITTED] T2572.065
    
    [GRAPHIC] [TIFF OMITTED] T2572.066
    
    [GRAPHIC] [TIFF OMITTED] T2572.067
    
    [GRAPHIC] [TIFF OMITTED] T2572.068
    
    [GRAPHIC] [TIFF OMITTED] T2572.069
    
    [GRAPHIC] [TIFF OMITTED] T2572.070
    
    [GRAPHIC] [TIFF OMITTED] T2572.071
    
    [GRAPHIC] [TIFF OMITTED] T2572.072
    
    Mrs. Miller. Thank you, sir.
    Mr. Pizzella. Thank you.
    Mrs. Miller. Our next witness is Kevin Barrett. He is 
testifying today on behalf of the Synthetic Organic Chemical 
Manufacturers Association [SOCMA]. Mr. Barrett is a certified 
industrial hygienist and also a certified safety professional. 
He has worked for the chemical industry for about 16 years. He 
has been a member of the SOCMA for at least 10 years, and as a 
member of that he has chaired the Employee and Process Safety 
Committee for 5 years.
    Mr. Barrett, we welcome you today and look forward to your 
testimony, sir.

                   STATEMENT OF KEVIN BARRETT

    Mr. Barrett. Good afternoon, Madam Chairwoman and members 
of the subcommittee. Thank you for the invitation to testify on 
our experience with the Paperwork Reduction Act.
    My name is Kevin Barrett, and I am currently an industrial 
hygiene and safety consultant. I worked in the chemical 
industry for 18 years, and as a consultant I continue to 
provide support to chemical and industry clients.
    I am testifying here today on behalf of the Synthetic 
Organic Chemical Manufacturers Organization [SOCMA], a trade 
association representing the interests of custom and specialty 
chemical manufacturers, 70 percent of whom are small 
businesses. My comments today focus on two particular 
weaknesses in implementing the Paperwork Reduction Act, 
specifically the cumulative effect of numerous regulatory 
requirements on affected facilities and the inaccurate 
calculations of the burden required by specific regulations.
    Federal regulators have made significant strides in 
assessing and reducing the readily identifiable burdens, but 
regulatory burden still weighs on the chemical industry in 
terms of both cost and paperwork. We have picked all of the 
metaphorical low-hanging fruit of paperwork burden reduction 
and must now retire.
    What I mean by the cumulative effect of regulatory 
requirements is the number of records and reports a facility is 
responsible for, including both overlapping and separate 
requirements imposed by State and Federal regulators.
    In many cases, States are free to impose tougher standards 
on industry than are imposed by the Federal Government. The 
results are often regulatory strategies with similar goals but 
very different requirements. Consider the experience of one 
typical SOCMA member company.
    This company is a small single-plant committee with 
approximately 110 employees and only one full-time employee 
dedicated to environment, health and safety issues. It is 
subject to over 150 State and Federal environmental 
regulations, must keep records to satisfy 98 different 
regulatory requirements and is obligated to submit at least 48 
environmental reports per year. Alone, any one of these 
requirements seems unbearable. Only when they are aggregated is 
the extent of the regulatory burden clear, especially when it 
all falls on the shoulders of a single environmental health and 
safety professional.
    In addition to not capturing the burden associated with 
cumulative requirements, the act enables agencies to be overly 
conservative in their assessment of a burden imposed by a 
particular regulatory requirement. This consistent 
underestimating of regulatory burden prevents Congress, the 
Federal regulators and interested citizens from understanding 
the full scope of the regulatory burden imposed on an industry.
    One prime example of both cumulative effects and 
underestimating burden is the EPA's toxic release inventory 
reporting requirements. This rule has been a major focus of 
EPA's burden reduction efforts over the past several years and 
EPA has claimed positive results. At the time of the EPA's last 
information collection request to the Office of Management and 
Budget, the burden for repeat filers dropped from 47.1 hours to 
14.5 hours.
    In contrast, one SOCMA member, who is a repeat filer, spent 
approximately 250 hours completing his TRI report in 19--excuse 
me, in 2003. Additional requirements imposed by the State add 
another 80 hours to this total.
    A second example of an agency's underestimation of 
reporting burden is evident in OSHA's lockout/tagout burden 
calculations. This rule addresses the safety of work on 
equipment that, if unexpectedly energized during servicing or 
maintenance, could cause injury. In their most recent 
information collection request to the Office of Management and 
Budget, OSHA calculated the burden of compliance with this 
program anywhere between 15 seconds and 80 hours. The low-end 
estimates do not appear realistic.
    Specifically ensuring compliance with each written lockout 
procedure requires an annual inspection of that procedure, 
which must be documented in the written certification for each 
occurrence. In addition, the training provisions require 
written certifications and any retraining performed.
    Considering these and the other requirements, one SOCMA 
member calculated the low end of the annual burden for lockout/
tagout at about 7 hours per facility. Again this does not sound 
like much, but it is almost a full day's work and is 
significantly more than 15 seconds. If aggregated over 818,532 
respondents identified by OSHA and if every respondent spends 
the minimum 7 hours, OSHA would need to double their estimate 
of burden hours.
    In conclusion, focusing attention on the Paperwork 
Reduction Act provides a promising opportunity for OSHA, the 
EPA and the regulated community to reassess existing 
requirements, specifically the problems caused by the 
cumulative effect of numerous regulatory requirements and 
inaccurate calculation of burden. We hope that agencies 
actively engage the regulated community on future burden 
reduction efforts in order to enhance American small business 
competitiveness in the global economy.
    Thank you for your invitation to present our views today. I 
am happy to answer any questions you might have.
    [The prepared statement of Mr. Barrett follows:]

    [GRAPHIC] [TIFF OMITTED] T2572.093
    
    [GRAPHIC] [TIFF OMITTED] T2572.073
    
    [GRAPHIC] [TIFF OMITTED] T2572.074
    
    [GRAPHIC] [TIFF OMITTED] T2572.075
    
    [GRAPHIC] [TIFF OMITTED] T2572.076
    
    [GRAPHIC] [TIFF OMITTED] T2572.077
    
    [GRAPHIC] [TIFF OMITTED] T2572.078
    
    [GRAPHIC] [TIFF OMITTED] T2572.079
    
    [GRAPHIC] [TIFF OMITTED] T2572.080
    
    [GRAPHIC] [TIFF OMITTED] T2572.094
    
    [GRAPHIC] [TIFF OMITTED] T2572.095
    
    [GRAPHIC] [TIFF OMITTED] T2572.096
    
    [GRAPHIC] [TIFF OMITTED] T2572.097
    
    Mrs. Miller. Thank you, Mr. Barrett.
    Our last witness today is Sean Moulton. He has been the 
Senior Policy Analyst for OMB Watch since early 2002. Mr. 
Moulton specializes in environmental information and right-to-
know issues.
    Before joining OMB Watch, Mr. Moulton was a political 
analyst at Friends of the Earth. His background in 
environmental issues and policy analysis is extensive. We 
certainly welcome you here today, sir.
    Mr. Moulton.

                   STATEMENT OF SEAN MOULTON

    Mr. Moulton. Thank you for the opportunity to testify here 
today on the Paperwork Reduction Act.
    My name is Sean Moulton. I am Senior Information Policy 
Analyst at OMB Watch, a nonprofit research and advocacy 
organization that works to encourage a more open and responsive 
and accountable Federal Government.
    OMB Watch cares greatly about the life cycle of government 
information from collection to dissemination to archiving. 
Accordingly, we have been involved in each reauthorization of 
the Paperwork Reduction Act since it was enacted.
    I have provided written testimony that I would ask to be 
included in the record, and I will use this opportunity to 
summarize some of those points.
    Mrs. Miller. Without objection.
    Mr. Moulton. Thank you. The point I would like to emphasize 
most is that we must keep in mind the importance of 
information, the benefits of information. The Paperwork 
Reduction Act and the discussions that surround it focus 
primarily on viewing paperwork and information collection, I 
would say, as a burden. Information has always been the fuel 
that powers the engine of progress for the government, whether 
it is for environment, government spending or health and safety 
regulations.
    Eliminating or weakening collections of information to 
achieve an arbitrary reduction goal, as the PRA requires, Is 
shortsighted and I would say irresponsible. We began collecting 
this information to fill a need. While it is reasonable to try 
to minimize the work associated with that collection, we should 
not do so in a way that we fail to fulfill the original need.
    It is striking that the PRA only mandates disclosure of 
burden for the collection and not the benefits of what that 
information achieves. As a result, the debates on PRA are often 
one-sided. Congress hears from those filling out the paperwork, 
who are the first to complain, but seldom hears from those who 
use the information and benefit. The users often know little of 
PRA.
    I would like to highlight one example of the importance and 
use of information, one that has been raised earlier, the TRI 
program. As mentioned earlier, TRI has been an enormously 
successful and sufficient method in promoting significant 
reductions in pollution. Since reporting began in 1988, the 
original 299 chemicals that they began tracking have been--the 
releases of those chemicals have dropped 59 percent. As new 
chemicals have been added, reductions have continued to be 
seen. The TRI list in 1998 had grown to 589 chemicals, and in 
the 6 years that we have had data on those chemicals we have 
seen 42 percent reduction.
    One might think that with a track record like this, TRI 
would be immune to significant changes or cuts, but as Ms. 
Nelson testified, the agency is considering significant changes 
to TRI reporting because of the TRI's demand for burden 
reduction. Each of the burden reductions being considered by 
EPA, including the no significant change, we would say 
represents a significant loss of information to the public. 
This is burden reduction at any means necessary, burden 
reduction by reducing the amount or accuracy of information.
    In the interest of time, I will highlight some of the 
recommendations I made in my written testimony. I would 
recommend that the PRA be refocused as Congress goes forward 
with another round of reauthorization. The real strength of the 
PRA is its potential to help government manage its information 
resources.
    Unfortunately, the theme of reducing paperwork no matter 
the repercussions conflicts with a strong law of managing 
information resources. I would urge that Congress make 
appropriate changes to clearly establish that the primary 
purpose is to improve management of government information.
    The first change I would recommend would be to rename the 
law the Information Resource Management Act or similar title to 
reflect a new purpose.
    I would also suggest that Section 3505(a) be eliminated. 
This is the section in which Congress has mandated annual 
burden reduction goals. I am not against reducing reporting 
burdens, but any burden reduction must be examined within the 
context of the purpose and use of information. Given the 
information age in which we live, the growing need to know 
more, it simply may not be possible to collect the data we need 
and to reduce burden at the same time.
    Congress should rebalance the PRA with less emphasis on 
burden reduction and more emphasis on filling information gaps 
and improving the quality and timeliness of the information we 
collect.
    There are legitimate methods to minimize reporting burden 
without compromising information, and the PRA should emphasize 
those as well. The most widely noted one would be electronic 
reporting. Several people have talked about that.
    I would also like to make a point about the public access 
and dissemination under PRA. Under like burden reduction, it 
has received too little attention. Prior to the 1995 
reauthorization, PRA did not even contain a definition of 
public information, nor was dissemination included in the 
purpose of the law.
    Dissemination of information to the public promotes the use 
of data. It promotes the improvement of data. It squeezes the 
maximum amount of benefit out of that data. Without use the 
information serves little purpose. Many users of the government 
data currently must resort to the lengthy and laborious process 
under Freedom of Information Act to obtain their information. 
Congress should make FOIA a vehicle of last resort. This could 
be achieved by including a provision in the PRA that requires 
government agencies to publicly disseminate in a timely manner 
all information they collect unless that information would be 
exempt under FOIA.
    Finally, I would like to make two points about the 
politicization of PRA. A major weakness of the Paperwork 
Reduction Act has been susceptibility to manipulation. It 
creates a back door for achieving politically motivated goals 
with regard to the regulatory process. Many believe that OIRA 
has used its paperwork authority to interfere with substantive 
agency decisionmaking.
    Another problem has been the imbalance of attention that 
the paper has gotten at agencies from OIRA. I apologize, OIRA 
is the Office of Information Regulatory Affairs. For instance 
in 1999, EPA's paperwork burden was less than 2 percent of the 
total government burden. Yet the agency had six OIRA desk 
officers there. At the same time, Treasury constituted, as it 
does now, over 80 percent of the paperwork burden from 
government but only had one desk officer.
    We would recommend that Congress mandate that OIRA assign 
staff to agencies in proportion with the amount of paperwork 
burden those agencies produce. We would also recommend that 
OIRA be required to publicly explain and justify any 
information collection request that it alters to clients or 
delays.
    I thank the committee for the opportunity to testify here, 
and I look forward to answering any questions on this issue. 
Thank you.
    [The prepared statement of Mr. Moulton follows:]

    [GRAPHIC] [TIFF OMITTED] T2572.081
    
    [GRAPHIC] [TIFF OMITTED] T2572.082
    
    [GRAPHIC] [TIFF OMITTED] T2572.083
    
    [GRAPHIC] [TIFF OMITTED] T2572.084
    
    [GRAPHIC] [TIFF OMITTED] T2572.085
    
    [GRAPHIC] [TIFF OMITTED] T2572.086
    
    [GRAPHIC] [TIFF OMITTED] T2572.087
    
    [GRAPHIC] [TIFF OMITTED] T2572.088
    
    [GRAPHIC] [TIFF OMITTED] T2572.089
    
    [GRAPHIC] [TIFF OMITTED] T2572.090
    
    [GRAPHIC] [TIFF OMITTED] T2572.091
    
    [GRAPHIC] [TIFF OMITTED] T2572.092
    
    Mrs. Miller. Thank you very much, Mr. Moulton. I thought 
your remarks were interesting, all of you. I am not sure quite 
where to start. A lot of interesting testimony here today.
    My personal thought is one of the filters we need in order 
to look at the PRA again is a good, clear, analytical analysis, 
I think, of the cost benefit of not only the regulation itself 
but the paperwork requirement that we have for collecting all 
of this data and what we are going to get out of it.
    It has been interesting to me, as the Chair of this 
committee, and some of the different hearings that we have had. 
You have had Small Business Association testifying that the 
regulatory burden that the government has placed on small 
businesses, about $7,000 per employee, just to comply with 
government regulations, which is quite a bit of money, a little 
bit of change in your blue jeans, I think. You hear the 
National Association of ufacturers say that with our regulatory 
burden that we have, the structural costs of our manufactured 
goods here in our country are 22 to 23 points higher than any 
of our foreign competitors, including Canada, what have you, 
principally based on the regulatory burden that we do place on 
them.
    I was interested to hear Mr. Barrett talk about 70 percent 
of your group are small businesses. You mentioned--I was 
listening to the one example you gave where they had 98 
different forms they had to fill out from State and Federal 
Governments about the Toxic Release Inventory, which is 
something this committee hears quite a bit about as well.
    Is there an ability now--I think this is to Mr. Barrett and 
Ms. Nelson--is there an ability now for agencies to file online 
with the Toxic Release Inventory, where they could report 
online for the Federal requirements as well as the States? Is 
that one of the things that you have done?
    Ms. Nelson. There is. As I have mentioned, we have 
something that is called TRI-ME, it is the Toxics Release 
Inventory Made Easy software akin to TurboTax, which allows 
somebody to walk through the report and be prompted for the 
correct information. Last year we had about--almost--over 80 
percent of the TRI forms come in electronically. The numbers 
keep getting higher and higher each year. So we are seeing 
great success there.
    But what is more important is the example I just mentioned 
in my testimony where the current law requires a facility to 
submit two reports at the same time to a State and EPA. Keep in 
mind that law was passed almost 20 years ago when things came 
in via paper. Under an agreement with four States, with 
Michigan and South Carolina, Virginia and then Indiana added to 
the mix, those reports that are being submitted now, that are 
due July 1st, the facilities in those States have the option to 
say when I submit this report it counts as my State submission, 
which means when EPA gets it we automatically take that 
information, and using our exchange network, a network we are 
using to share information with States and tribes, we 
automatically feed that information back to the States.
    As to why that is significant, Representative Brown-Waite 
mentioned that oftentimes the forms are different. So even 
though it is the same law that requires the submission of the 
information, States may change the forms and add information to 
it.
    We think with the States getting this option they will be 
less likely to do that because they won't have to build their 
own information systems. They won't have to build their own 
electronic systems that have to authenticate and identify and 
receive those reports electronically, which means there will be 
more standardization between the States and the Federal 
Government.
    Facilities submit the report one time, and it's much easier 
to reconcile those reports when there are errors. And often 
there are errors that come in from the facilities. So we think 
it is a real streamline process that benefits everyone.
    Mrs. Miller. I am not surprised to hear Michigan is one of 
the States on the leading edge there with technology. They 
always weren't many times in the area.
    Ms. Nelson. They are one of the leaders in the area all the 
way around. So we thank you.
    Mrs. Miller. Mr. Pizzella, from the Department of Labor, 
you mentioned in your testimony, you said that you had 
identified unequivocally some of your key goals. You had said 
that your Department had identified 12 different initiatives to 
reduce burden. I wonder if you could give us one or two 
specific examples of what some of those 12 initiatives are and 
what kinds of goals you are hoping to achieve with that and 
what you are--perhaps an example of some of your best practices 
with those initiatives, if they are working?
    Mr. Pizzella. Sure. We have an example of using technology 
and prove how the public does business with the Department in 
our initiative on e-grants. The Department's e-grants 
initiative is an enterprise-wide response to the President's 
management agenda for an electronic government by streamlining 
and automating the application process for Federal and grant 
programs.
    Previously, the DOL agencies used it for a variety of 
processes, some automated, some manual. There was no central 
depository in the Department, and we decided to put our arms 
around it, make it a little bit unified. We are currently 
implementing that in an effort to eliminate redundancy and 
disparity of data collection that takes place. We hope to 
improve the efficiency and simplify the application procedures. 
That is one that we are in the process of implementing. It also 
has governmentwide implications, because some of my colleagues 
are involved in that same effort.
    Another example is the Bureau of Labor Statistics. They 
have a quarterly consensus and wages program. It also reports 
to the Federal Employment in Wages. I guess the acronym, for 
those of you who follow that, is RFEW. Also BLS has an 
initiative to again simplify this process by going from manual 
to automated. A collection in the past has been very paper 
intensive, very manual, and they have now been pursuing an 
automated one in which Federal agencies are very responsive and 
also the private sector implementing that. Those would probably 
be the two best examples I could cite right now for the 
Department.
    Mrs. Miller. Thank you. Talking about paperwork 
extensively, I guess that leads me to my next question to Mr. 
Matthews. You indicated that 65 percent of the burden in your 
Department is principally from truck drivers trying to monitor 
from their logbooks, I suppose, what their time is on the road 
and whatever information that you are gathering from there.
    I heard that an estimate of the burden in order to fill out 
a logbook was 3 minutes, and you had determined that it should 
really be 6 minutes and that the truck drivers might actually 
tell you it is actually 10 or 15 minutes.
    I am not sure if any of that is actually true, having 
talked to some of the truck drivers that I know. But is there a 
way electronically to--I mean, if that's a huge majority of the 
burden that you have in your Department, is there a way to use 
an electronic keyboard? And when you do get the information 
currently in a paper format, how is it transmitted from the 
chicken coops back to you?
    Mr. Matthews. Starting with the first part of the question, 
Madam Chairwoman, if I could, the use of electronics is done 
for hours of service in other modal operations. For instance, I 
mentioned Federal railroads collects hours of service 
electronically from railroad and conductors. Certainly that 
technology is extensible to other modes of transportation.
    The Department of Transportation has looked at using 
electronic collection in submission of information in the other 
modes. In some cases the people responsible for doing the 
paperwork submissions would prefer not to have electronic 
submission, but rather continue to fill out logbooks for 
whatever particular reasons that they seek.
    For the hours of service that you asked about, the 
Department of Transportation currently has an open rulemaking 
going on to ascertain public comments about the revision to 
that rule. So we look forward to comments from the public and 
will use those comments to revise, amend and republish that 
particular legislation.
    Currently, those paper records are sent in manually to the 
Department of Transportation if summarized by or collected by 
companies and then submitted to the Department of 
Transportation. That is true for all hours of service 
submissions, including pilots, who also have a similar 
requirement to log the number of hours that they are flying 
aircraft.
    Mrs. Miller. I see. The rule you are talking about, that is 
the one you testified that is coming out in the fall of this 
year?
    Mr. Matthews. Yes. It is due out September 30th of this 
year.
    Mrs. Miller. All right. I will at this time recognize the 
ranking member, Representative Lynch for his questions.
    Mr. Lynch. Thank you. Again, I thank you for your 
testimony. I think, Madam Chairwoman, I have an initial 
question that sort of came out through the GAO report. I just 
wanted to ask Ms. Koontz and also Mr. Moulton, because you both 
sort of brought it up in your remarks.
    One of the 10 standards that we have within the PRA, I 
think it's standard No. 9, says ``the collection should use 
effective and efficient statistical methodology.'' In the GAO 
report it says that the method that we are using within OMB to 
measure the burden that we are trying to reduce, that is 
limited in itself. So we are counting up all these billions of 
hours? It sounds like people in America do nothing but 
paperwork. But based on the assessments I have heard this 
morning, maybe we don't want to reduce paperwork. We will have 
massive unemployment.
    But, really, can you sort of give me a fix on the accuracy 
on the way we are measuring burden? Because there seems to be a 
big swing here. It either takes 15 minutes or it takes 8 hours, 
same thing. They have sort of a wide range of possibilities 
there.
    Is there a way that we can tighten this up to say this is 
how much time it is taking, and the idea here, if we do this 
right, this is what our reasonable expectation should be in 
terms of reducing a certain amount of paperwork?
    I was just trying to get my arms around that whole part of 
this. You know, how much of this is overstated and what is 
really accurate here? Ms. Koontz.
    Ms. Koontz. We didn't look in depth at agency estimation 
methodology, but we do know from studying this for a number of 
years that the burden estimates are just that, they are 
estimates. There isn't necessarily a consistent way of 
measuring this from agency to agency. So we always view the 
burden estimates as having a number of limitations.
    As I said in my statement, it's probably OK to use them as 
an estimate, but you have to keep in mind what the limitations 
are.
    I understand that IRS, for example, has gone through a lot 
of work. They are not here today, but they have gone through a 
lot of work to actually refine their burden estimation 
methodology. You may have heard from them in the previous 
hearing that the subcommittee held.
    Efforts like that might be helpful. I think they have to be 
balanced, however. You could spend a lot of time and money 
deciding what number to put on this. It doesn't necessarily 
then actually reduce the burden of anyone who is actually 
reporting. We just have a better number. So I think, yes, we 
maybe need to do more than the actual burden is. We have to 
balance that with, also, efforts to make sure that we have 
fewer people filling out less paperwork.
    Mr. Lynch. That is fair enough. Thank you.
    Mr. Moulton.
    Mr. Moulton. Yes. I think this is certainly a case, as you 
have categorized, of fuzzy math. The burden hours are generated 
from a very complex equation. It's not based on actually 
surveying, anyone actually filling out the paperwork.
    Very often the paperwork burden hour is generated 
initially. Common sense would tell us that as you continue to 
refile you are going to see a significant reduction in how long 
it takes you to fill out that paperwork. But we often don't see 
in a lot of the burden estimates of that level or that 
attribute taken into account.
    But I agree that what we really need to focus on, 
regardless of the fuzzy number, I think, is whether or not the 
burden is useful, whether or not it provides us with enough 
information or important enough information that regardless of 
the burden we are doing it as efficiently as we can. It is 
taking as long as it takes. We are going to see a range of 
hours it takes people. Some people fill it out faster than 
others. I think what we need to focus on is, is the information 
important and useful to us?
    Mr. Lynch. All right. Thank you. I agree. As I see it, you 
know the standard that could probably be most helpful is indeed 
just that, that we are not gathering needless information or 
information that has low utility at the end of the day, as 
opposed to something that I do believe is important, which is 
if people are dumping chemicals, you know, toxic substances out 
the back door of their factory or releasing that into our 
treatment systems, they should probably report that to the 
general public. We shouldn't limit the access of the public to 
that type of information.
    Ms. Nelson, you have testified that the EPA will, I don't 
know if it is this summer or later this year, introduce a 
couple of measures to make it easier. I am concerned that maybe 
some of the proposals would have an effect of eliminating 
access to important information.
    For example, one option, at least discussed, I am not sure 
if it is part of this proposal, would raise the reporting 
thresholds for small to medium-sized businesses. That may sound 
good, but what they intend to do, I think, if I am reading it 
correctly--say there are two businesses that emit the same 
quantity of toxic chemicals but one is a larger business while 
the other is a smaller business, under the approach you are 
suggesting the larger business will have to report its toxic 
chemical releases, but the smaller businesses will not?
    While the other is a smaller business and you are 
suggesting that the larger business will have to report its 
toxic chemical release--and I'm not sure of that. Because I 
think, in some cases, it has no bearing on the amount of damage 
this caused; and the concern I have is that the public will 
only find out about the toxins released by the larger company. 
That is not necessarily a good thing, in my estimation, at the 
end of the day; and I wonder if you could comment on that.
    Ms. Nelson. Sure. This year, I did say we will have two 
proposed rulemakings. The reason we decided to have two, we 
based it on stakeholder interest that we had a couple of years 
ago and decided that some of the changes we could make were 
relatively minor in nature and that we should process those a 
little faster. In fact, we put those out for comment last 
January. We received 30 comments on an EPA TRI package, which 
is pretty miraculous; and we're moving forward with those. 
Those changes are really eliminating duplicate information that 
was being collected, and we felt we could use our enterprise 
architecture to collect the information one time and use it for 
multiple programs. That was one rule.
    The rule you're referring to, sir, is the more substantive 
burden reduction rule; and, quite frankly, we have not made any 
decisions yet internally within the agency as to what will be 
included in that rule. I did mention one option we are looking 
at is no significant change option. But what you're referring 
to is changing the thresholds, and we have not made any 
decisions within the agency as to whether we would do that or 
not.
    The reason we are pursuing in all likelihood one of the 
options, the no-significant-change option, is we have often 
heard from industry that though there are changes, their 
releases change very little from year to year, which is why Mr. 
Barrett's number about the estimate being so high for one 
particular industry is a little surprising, although it just 
may be an anomaly in one industry.
    But we are proposing the no-significant-change option 
because that way we can reduce the burden on industry if, in 
fact, things are generally the same but still provide the 
information to the community. You've touched on a very 
important point with the TRI program. It is not simply a matter 
of the agency getting the information for its use, but the TRI 
program started out as a community right-to-know program. The 
purpose was for citizens to know what is happening in the 
community.
    So we're walking a very fine balance with these burden 
reduction rules of how do we eliminate redundant, duplicative 
information, maybe information that isn't really needed or used 
by anyone, with the fact that many, many people across the 
country want to know what is happening in their community. So 
we are really trying to focus not on reduction of information 
to citizens but where can we still provide the same level of 
information to citizens but reduce information that might not 
be of use to the consumers of the information, or information 
we can provide because we have it from other sources.
    Mr. Lynch. I know you said it is not final, but I don't 
think that asking the information from a smaller company is 
regarded as redundant just because we are asking for the same 
information from a larger company.
    Ms. Nelson. No, it would not be. As I said, that proposed 
rule is not out yet, so what you're suggesting there is not 
something that is being considered by EPA.
    Mr. Lynch. That is good news. So we are not going to assume 
that a small company doesn't have to report just because 
they're only polluting a little bit?
    Ms. Nelson. That is correct. That is correct.
    Mr. Lynch. The other--Madam, should I come back for a later 
round?
    Mrs. Miller. Go ahead.
    Mr. Lynch. Another option that I have heard of is for 
changing the program to raise the reporting thresholds for 
certain chemicals or certain types of facilities that represent 
a smaller portion of Nationwide emissions so that, because 
they're a smaller proportion, even though their amount might be 
significant but because of a Nationwide emission level they're 
only a small player in that.
    Again, I have a similar concern about the impact on a local 
neighborhood. A very small company that turned out to have a 
leak in one of their petrochemical storage tanks, it leaked out 
into the neighborhood, and now I have a lot of young women with 
lupus and young people with cancer, and there are all kinds of 
chemicals under their homes. A small company wouldn't have come 
up on anybody's radar screen, and is probably a very small 
percentage of emissions Nationwide and contamination Nationwide 
but an enormous and tragic impact to a very small community. So 
just concerned about whether or not that proposal, in doing a 
proportion of the analysis nationally, whether that is an 
effective way to limit polluters.
    Ms. Nelson. I don't think you'll see a proposal like that 
either.
    Mr. Lynch. That is great, Madam. I yield back, Madam 
Chairwoman.
    Mrs. Miller. OK, I recognize Representative Brown-Waite.
    Ms. Brown-Waite. Thank you very much, Madam Chairwoman.
    I remember the old cartoon where it says we have met the 
enemy, and it is us. So I would ask each of the chief 
information officers, what can Congress do in conjunction with 
your agencies to reduce the burden imposed as required in the 
various statutes?
    And I would ask a second question; and that is, have you 
ever gone to Congress to say, you know, while you have asked us 
to collect this data, we really don't use it for anything and 
don't see any real future use for it?
    So have you been proactive in helping to reduce the 
paperwork by asking for some relief? And I will start with Ms. 
Koontz.
    Ms. Koontz. Was that a question for the chief information 
officers.
    Ms. Brown-Waite. Yes.
    Ms. Koontz. I'll pass to a chief information officer then. 
If you want me to come back and talk about some of the things 
that GAO believes Congress can do, I'll do that as well.
    Ms. Brown-Waite. I will ask Ms. Nelson.
    Ms. Nelson. In terms of your first question, what can 
Congress do to help reduce the burden, one of the things I 
would ask is perhaps we have a dialog about the benefits of 
using technology today versus when the law was first passed.
    I know there are some that are reluctant to say simply 
submitting a report electronically is not really a reduction in 
burden, but I think there are things going on today where in 
fact the use of technology can be a tremendous reduction in 
burden. One of them I alluded to, things like creating turbo-
tax-like systems.
    But the second is--let me give you an example. For 
instance, we currently have a situation today where under the 
current Paperwork Reduction Act we would have to submit an 
information collection request for a situation we have where a 
safe drinking water program needs additional information from 
the States. We generally are responsible and we are made aware 
from the States of violations in drinking water. We get general 
information about those violations. We don't get specific 
information on the contaminants.
    Both the Safe Drinking Water Association, the association 
that represents all safe drinking water administrators across 
the country, and EPA want to share this information so we can 
more effectively manage a program. But getting this information 
from the States would require an ICR, which would be about a 2-
year process. That is a significant burden on taxpayers to put 
that through the process when in fact the States are voluntary 
willing to share that information. They want to give that to 
EPA.
    Using the technology that we have in place, this exchange 
network that we're building, this is very simple computer-to-
computer communications because they have the information 
already. The States have it. They collect it. This is simple 
computer-to-computer communications with really a few seconds 
worth of computer time to share the information, but it will 
take us 2 years to process that information collection request, 
just to get that information when the States want to share it 
with us. I think as we look to burden in the future, we need to 
think a little bit differently about situations like that and 
how technology can help us.
    In addition, you know, to answer your second question, how 
we approach Congress, I would very much like to come to 
Congress in the future on this TRI issue.
    Because, for instance, that example I gave you, the law 
currently says a facility shall report simultaneously to a 
State and EPA. We may be stretching the law a little bit here 
with what we're doing, although we think we're on safe grounds 
because when a facility submits that report to EPA they are 
saying this constitutes my State filing as well. There may be 
some who question whether that is legitimate or not, but we 
felt it was important to demonstrate the fact that technology 
exists today that allows a facility to submit one time and we 
can automatically get that or within 24 hours get that 
information back to the States with a huge savings to taxpayers 
at the State level because they don't have to create 
duplicative systems in 50 States to collect that information. 
That didn't exist when that law was passed almost 20 years ago.
    I think they're the kinds of things we have to take into 
consideration. So we wanted to demonstrate the fact that we can 
do that, and we would like to come back to Congress as that is 
an example of the kinds of things we can do in the future.
    Ms. Brown-Waite. If I could just ask a followup question of 
Ms. Nelson, can you think of one report that you're aware of 
that your agency has--and I'm going to add this to the list for 
the others, too--one reporting requirement that your agency has 
that you know that when you all get these reports they get 
filed away in a box and probably no one has ever looked at 
them?
    Ms. Nelson. I can certainly speak from some of my State 
experience. Let me say that, because I did spend 14 years in a 
State Environmental Protection Agency, in the environmental 
field the vast majority of all environmental reporting happens 
at the State level, not the EPA. EPA gets its information then 
from the States, which get it from the facilities.
    In a particular situation for discharge monitoring reports, 
we received 60,000 of those a year in the State of 
Pennsylvania. Only about 25 percent of those ever made it into 
an information system because of the volume. We could not 
afford to pay staff to do all the data entry to get those into 
an information system; and, quite frankly, if they're not in an 
information system, the likelihood that you're examining all of 
those is pretty slim. So, yes, I would say a good percentage of 
those may have been eyeballed but certainly not the kind of 
analysis we're doing.
    I will point to the chairman's State once again, though, 
with funding from EPA, the State of Michigan has last year 
became one of the first States to fully automate the submission 
of those discharge monitoring reports from facilities fully so 
that the monitoring data goes from the facility to the State 
and into EPA's information systems. That is a huge success.
    Because that program that collects those discharge 
monitoring reports--that is the system which is called the 
Permit Compliance System--is the second-largest information 
collection in the entire country. We may rank sixth in terms of 
agencies, but that particular collection itself for the PCS 
system is the second largest in the Federal Government, second 
only behind the tax collection, the IRS tax collection. So that 
demonstration which is real, not just a pilot demonstration for 
the State of Michigan, is one that we're looking to replicate 
across the country and for Michigan alone has saved hundreds of 
thousands of dollars in that agency and resulted in much higher 
quality today that we can use and analyze.
    Ms. Brown-Waite. Mr. Matthews.
    Mr. Matthews. What can Congress do to help reduce the 
paperwork burden working with ICIO? I do believe looking to 
technology and how it can be employed would be useful.
    The fact of the matter is, it is my opinion in the Federal 
Government that agencies have a stove-pipe requirement. They 
have vent systems based in that stove-pipe. Perhaps it is time 
to take a look at best practices horizontally in organizations, 
not just, say, in DOT but DOT and EPA, and how do we leverage 
them and, as Ms. Nelson mentioned earlier, reach out to State 
and local agencies so that we can consolidate governmental 
reporting of information across the government. I do believe 
that it is time to have a conversation about how technology can 
help do that.
    Have we at the DOT come to Congress requesting relief? I do 
know that we come up here frequently asking for clarification 
on laws that have been proposed and what data needs to be 
collected. We also come to talk about our intention in 
collecting the data in seeking comments. But, typically, the 
agencies themselves would engage in that conversation. The 
departmental PRA responsibility may or may not be aware of that 
conversation that has gone on. So I do think that DOT does come 
up to have conversations. Perhaps establishing a centralized 
checkpoint on those conversations would be useful.
    Then, do we have any stuff in the box that we don't take a 
look at? I promise you if I was aware of it I would be seeking 
an end to it with some dispatch. As a citizen who is loath to 
fill out any single piece of paperwork to tell anyone about me 
or my family, I would pursue that with a vengeance; and I would 
encourage anyone, if they're aware of it, to let me know and I 
will go after it at the DOT.
    Thank you very much.
    Mr. Pizzella. Thank you.
    Let me first say that my colleagues, Kim and Dan and 
myself, we through the CIO Council work to coordinate our 
efforts in the executive branch to try to push e-government 
initiatives and reduce sort of the manual processes that have 
been in place for years and move toward a more electronic 
processing of information and so forth.
    I thought about your question about how people read these 
reports, and what bounded in my mind immediately is how many 
times I call an agency head in the department where my office 
is reviewing a submission for Congress; and I will say, you 
know, I saw something in here and I'm wondering if you think 
this might need to be clarified a little more before we send it 
up. And I on more than one occasion have heard that comment, 
which report is that? And I'll tell them the report; and they 
will say, nobody reads that anyway. So I think there is some 
skepticism on our end of the reports being read by anybody, 
whether it is Congress or the citizens in some cases.
    What can Congress do regarding PRA? I guess they could 
maybe consider a little bit more the PRA implication of laws 
they're passing and maybe working in conjunction with the 
departments that are most affected by that.
    Last, you should know and you probably do know this, that 
in the agencies when there is internal debate about whether or 
not this report may make sense that we're providing to Congress 
or this report is necessary, the very phrase ``Congress 
requires'' is sort of a debate-ending sentence. In a discussion 
of people, many of them very talented and capable professionals 
within the Civil Service structure, who are questioning why 
we're doing X, Y and Z and somebody says, look, Congress 
requires this, it sort of drives them to complete the project, 
make the submission on time, try and sort of take a thorough 
review and try to make an argument back to Congress.
    I guess my final suggestion would be that perhaps together 
we can work some type of agreement, maybe even a sort of 
reverse data call where Congress asks the agencies or 
departments to tell us which reports you think are probably 
least useful to provide and maybe we can have an honest dialog. 
I suppose we have to coordinate amongst the various parts of 
the executive branch, we have to coordinate on things like 
that, but I bet there is a font of information there.
    Ms. Brown-Waite. Thank you very much.
    Mrs. Miller. One thing I guess would I say, we certainly 
want to encourage you all to be extremely creative as much as 
you know you can, as you say if you know of a report you would 
be after it. But maybe you do know of some reports, as you 
think about it, that aren't being read; and of course utilizing 
technology as well is absolutely critical as we try to move 
away from some of this paperwork.
    My job since I came to Congress has almost been 
administrative in nature. At one point in my career I was a 
county treasurer in my county. I can remember going in there my 
first week. We were trying to do an operational audit of all 
the different paperwork. They were reconciling all this. We are 
the third-largest county in all of Michigan. We were 
reconciling all the bank books. They had their little lights on 
with their pencils. Unbelievable, quite frankly.
    But I remember this huge stack of paper in this closet, and 
they were--you watched them every other day moving it off to 
somewhere. I don't know where they were moving it to. And I 
said to this woman, what are those reports? Well, I'm doing 
this and this and this. Where do they go to and who reads them? 
And she said, I really don't know. I said, we are just not 
going to do that anymore. And she said, we can't do that 
because ``they'' will be upset. I said, who do you think 
``they'' are? You are looking at ``they.'' We're not doing that 
any more.
    So I guess I would simply encourage you to all be as 
creative as you can, and I would be looking for some specific 
instances or recommendations from any of you. I'm sure this 
committee will find very fertile ground here on things that you 
think require some legislative initiative, but oftentimes I 
think it can be in the rulemaking, promulgating rules to 
eliminate some indicia requirements and forms.
    Again, I think this subcommittee and entire committee would 
be very receptive to working with you in those regards. You 
live it every day. We have a lot of other things we are trying 
to focus on here, but I think we would be very receptive to 
listening to some specific recommendations on what Congress can 
do to help you.
    I have a question to Mr. Barrett. I think I may have cut 
you off. Do you have any particular response to Ms. Nelson from 
the EPA about some of the different comments she was making 
about compliance and what your industry's experience has been 
and if you have any comments on whether that's being helpful or 
not.
    Mr. Barrett. Thank you very much.
    I think the question that you posed was with respect to the 
TRI reporting. I think SOCMA members--SOCMA folks have 
canvassed their membership and there is a lot of support for 
what EPA is doing in terms of automating the TRI reporting and 
that is certainly a step in the right direction. It is my 
understanding that EPA claims a 25 percent reduction as a 
consequence of electronic reporting, but, in actuality--and 
I've seen this myself within the ocean realm primarily--the 
vast majority of the work that goes into completing forms that 
goes into all this paperwork happens before you ever pick up a 
piece of paper or ever sit at the computer. It is having 
meetings, pulling the information together, doing a lot of 
calculations.
    So in the particular instance of the TRI report that was 
mentioned in my testimony, the individual indicated that in 
that company it took 250 hours to complete the TRI requirement 
but 10 hours to do the actual paperwork. So there is a lot of 
background work that goes into actually developing that piece 
of paper.
    That is something that needs to be borne in mind, and that 
carries through to all aspects of regulatory reporting. There 
is an awful lot that goes on behind the scenes that isn't 
normally captured and oftentimes I think is not necessarily 
reflected in the estimates that come out of the various 
agencies.
    Mrs. Miller. One of the things that we're talking about 
here is the GAO report that we're releasing here. Obviously, 
these burden estimates, as you talk about, are very difficult 
certainly not a fine science, that is for sure. I don't know if 
they could--they should call them estimates or guesstimates, I 
suppose. But they cannot be guesstimated in a vacuum. You have 
to talk to real people who are the end users of all these forms 
and what their personal experiences have been, individuals or 
businesses or what have you.
    I'm noticing that the report states that only 37 percent of 
the collections government-wide were in compliance with the 
PRAs actually to consult with the public on the proposed 
collection. So I am just wondering--perhaps we could have a 
comment. How can that compliance be better and have we made it 
too restrictive to reach out to actual people?
    Ms. Koontz. I think what we saw in our review was that few 
of the four agencies that we looked at in detail had complied 
with the requirement to otherwise consult beyond publishing a 
notice in the Federal Register. However, the reason that this 
occurred was because OMB's guidance states that agencies are to 
otherwise consult only when the collection merits such 
attention. Our feeling was that did not meet the requirements 
of the act. OMB disagrees. They believe that their 
interpretation is correct. We have agreed to disagree on this.
    But I think what it means is that possibly this is 
something that the Congress might want to clarify during 
reauthorization, and that is what are their expectations as to 
consultation beyond the public comment period that is allowed 
in the Federal Register notice. So that is the principal reason 
that agencies did not feel that they were required to do this, 
and that is not why it didn't happen.
    We did talk to a number of agencies who did consult with 
the groups. They published proposed rules on their Web site. 
They conducted focus groups, they worked with professional 
organizations, and in many cases they were able to give us 
examples where that helped shape the collection in a 
significant way.
    However, I do think it is a fair question also about 
whether it is appropriate to consult directly on every single 
collection. Agencies pointed out to us that in many cases 
collections are renewals, longstanding collections. These have 
been out in the public for a long period of time, and they're 
not sure that is the cost-effective approach, to do it on each 
and every collection. So I think it is something that probably 
merits some more debate and attention as we move forward on 
PRA.
    Mrs. Miller. OK. Mr. Lynch.
    Mr. Lynch. Thank you.
    Ms. Nelson, just to clarify this, I guess what I had read 
earlier was a stakeholder review that the EPA conducted, and I 
do believe that the EPA requested comments on whether higher 
reporting thresholds for small businesses would actually become 
a rule or be proposed by EPA and whether higher reporting 
thresholds for categories of facilities or classes of chemicals 
with small reportable amounts would be no longer disclosed by 
those facilities. Is that--are these coming out as rules 
proposed? I don't know I don't want to----
    Ms. Nelson. No, you are correct. They are part of a 
stakeholder dialog that we held 2 years ago where we put a lot 
of issues out on the table electronically to receive input in 
terms of various options. We used the stakeholder input that we 
got through that process to help us formulate our proposed 
rules, one of which has already been proposed and is ready to 
be final, the second of which has not been proposed yet. And we 
are still having those conversations within the agency as to 
which options we should move forward with.
    So we have not decided within the agency which of those 
options will go out in the proposed rulemaking. We still need 
to consult with the administrator on what those final options 
will be. We do feel fairly confident that one of them will be--
at least there is a proposal--the no-significant-change option, 
which means that your releases didn't change much from last 
year.
    Mr. Lynch. I understand.
    Ms. Nelson. But the other options are all still under 
discussion, so there's no decision made and no proposal on the 
street yet.
    Mr. Lynch. And I understand the no-significant-change 
option really goes to the redundancy of the information already 
provided.
    Ms. Nelson. Well, I wouldn't say redundant as much as 
trying to make it easier in the industry. If my processing 
hasn't changed and my releases haven't changed too much since 
last year, I'm just going to certify that you can use the 
numbers we gave you last year because for all intents and 
purposes my releases are the same as last year.
    That way, the public still knows everything in terms of 
what releases have been in their community and they have a 
general idea. Because we're looking at generally, how do you 
determine what no significant change is? A 5, 10, 15 percent 
change? But the public still has all the information they have 
had in the past. But it is much less burdensome on the industry 
in terms of not having to fill out the complete set of TRI 
forms. They can just certify my releases are essentially the 
same as last year.
    Mr. Lynch. Thank you.
    Mr. Moulton, I know earlier we heard from each of the CIOs 
in terms of what Congress can do. I read your testimony, and 
you mentioned OIRA and the allocation of officers that are with 
various agencies and how sometimes that is not proportionate to 
the amount of paperwork that they're producing. Do you have a 
response to other things Congress could be doing to make sure 
that the focus is not politicized, as you've described in Roman 
numeral V of your report?
    Mr. Moulton. Sure. I do think that all the CIOs' emphasis 
on using technology is a good one, and I think Congress can 
encourage that and maybe even put a little pressure on the 
agencies. Or maybe the better phrase would be to give them a 
bit more authority and feeling that they can push forward more 
aggressively on implementation of technology.
    In terms of the politicization of the PRA, I think that 
what Congress needs to do is make sure if what we're really 
after is a reduction in paperwork and we have a few agencies 
producing the lion's share of that paperwork, even if the three 
agencies here made the reductions relative to their own 
paperwork burden of 10 percent or 5 percent of the year, it 
would be swallowed up by the IRS. So if IRS has the lion's 
share, then we should be focusing a great deal more attention, 
as this committee did by having them here for their own panel a 
few weeks ago, which I applaud. But I think we need to mandate 
that attention be paid or special attention be paid on the IRS 
and that proportional attention be paid on the agencies as you 
move down the tiers of how much burden they impose on people 
with their paperwork.
    Mr. Lynch. Thank you, Madam Chairwoman.
    Mrs. Miller. Thank you very much for coming.
    You know, talking about the IRS, I made this comment to Mr. 
Everson during that hearing. I would just share this with you 
as well.
    When I was a kid, my dad was an aeronautical engineer, 
worked on a Redstone with Wernher Von Braun at the beginning of 
the rocket program; and he said it was very exciting times 
until the Federal Government got involved in the process and 
with all the paperwork that they always had to fill out. Daddy 
used to say that they would never shoot off a missile until the 
paperwork equaled the weight of the rocket.
    So I think here we are today still looking at what we can 
do, but I certainly appreciate all of your attendance today. 
Certainly as Congress moves toward renewal of PRA we will 
certainly take into consideration many of your comments. They 
have been very insightful and helpful to the Congress here. We 
also will be looking forward to receiving specific suggestions, 
as we talked about, from many of you as we talk about what we 
can do to assist you in expediting some of these different 
processes that we have currently in place.
    With that, the meeting will be adjourned. Thank you.
    [Whereupon, at 3:43 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2572.098

[GRAPHIC] [TIFF OMITTED] T2572.099

[GRAPHIC] [TIFF OMITTED] T2572.100

[GRAPHIC] [TIFF OMITTED] T2572.101

[GRAPHIC] [TIFF OMITTED] T2572.102

[GRAPHIC] [TIFF OMITTED] T2572.103

[GRAPHIC] [TIFF OMITTED] T2572.104

[GRAPHIC] [TIFF OMITTED] T2572.105

[GRAPHIC] [TIFF OMITTED] T2572.106

[GRAPHIC] [TIFF OMITTED] T2572.107

[GRAPHIC] [TIFF OMITTED] T2572.108

[GRAPHIC] [TIFF OMITTED] T2572.109

[GRAPHIC] [TIFF OMITTED] T2572.110

[GRAPHIC] [TIFF OMITTED] T2572.111

[GRAPHIC] [TIFF OMITTED] T2572.112

[GRAPHIC] [TIFF OMITTED] T2572.113

[GRAPHIC] [TIFF OMITTED] T2572.114

[GRAPHIC] [TIFF OMITTED] T2572.115

[GRAPHIC] [TIFF OMITTED] T2572.116

[GRAPHIC] [TIFF OMITTED] T2572.117

[GRAPHIC] [TIFF OMITTED] T2572.118

[GRAPHIC] [TIFF OMITTED] T2572.119

[GRAPHIC] [TIFF OMITTED] T2572.120

[GRAPHIC] [TIFF OMITTED] T2572.121

[GRAPHIC] [TIFF OMITTED] T2572.122

[GRAPHIC] [TIFF OMITTED] T2572.123

[GRAPHIC] [TIFF OMITTED] T2572.124

[GRAPHIC] [TIFF OMITTED] T2572.125

[GRAPHIC] [TIFF OMITTED] T2572.126

[GRAPHIC] [TIFF OMITTED] T2572.127

[GRAPHIC] [TIFF OMITTED] T2572.128

[GRAPHIC] [TIFF OMITTED] T2572.129

[GRAPHIC] [TIFF OMITTED] T2572.130

[GRAPHIC] [TIFF OMITTED] T2572.131

[GRAPHIC] [TIFF OMITTED] T2572.132

[GRAPHIC] [TIFF OMITTED] T2572.133

[GRAPHIC] [TIFF OMITTED] T2572.134

[GRAPHIC] [TIFF OMITTED] T2572.135

[GRAPHIC] [TIFF OMITTED] T2572.136

[GRAPHIC] [TIFF OMITTED] T2572.137

[GRAPHIC] [TIFF OMITTED] T2572.138

[GRAPHIC] [TIFF OMITTED] T2572.139

[GRAPHIC] [TIFF OMITTED] T2572.140

[GRAPHIC] [TIFF OMITTED] T2572.141

[GRAPHIC] [TIFF OMITTED] T2572.142

[GRAPHIC] [TIFF OMITTED] T2572.143

[GRAPHIC] [TIFF OMITTED] T2572.144

[GRAPHIC] [TIFF OMITTED] T2572.145

[GRAPHIC] [TIFF OMITTED] T2572.146

[GRAPHIC] [TIFF OMITTED] T2572.147

[GRAPHIC] [TIFF OMITTED] T2572.148

[GRAPHIC] [TIFF OMITTED] T2572.149

[GRAPHIC] [TIFF OMITTED] T2572.150

[GRAPHIC] [TIFF OMITTED] T2572.151

[GRAPHIC] [TIFF OMITTED] T2572.152

[GRAPHIC] [TIFF OMITTED] T2572.153

[GRAPHIC] [TIFF OMITTED] T2572.154

[GRAPHIC] [TIFF OMITTED] T2572.155

[GRAPHIC] [TIFF OMITTED] T2572.156

[GRAPHIC] [TIFF OMITTED] T2572.157

[GRAPHIC] [TIFF OMITTED] T2572.158

[GRAPHIC] [TIFF OMITTED] T2572.159

[GRAPHIC] [TIFF OMITTED] T2572.160

[GRAPHIC] [TIFF OMITTED] T2572.161

[GRAPHIC] [TIFF OMITTED] T2572.162

[GRAPHIC] [TIFF OMITTED] T2572.163

[GRAPHIC] [TIFF OMITTED] T2572.164

[GRAPHIC] [TIFF OMITTED] T2572.165

[GRAPHIC] [TIFF OMITTED] T2572.166

[GRAPHIC] [TIFF OMITTED] T2572.167

[GRAPHIC] [TIFF OMITTED] T2572.168

[GRAPHIC] [TIFF OMITTED] T2572.169

[GRAPHIC] [TIFF OMITTED] T2572.170

                                 <all>

</pre></body></html>
